                                                NATIONAL SCIENCE FOUNDATION
                                                 OFFICE OF INSPECTOR GENERAL
                                                  OFFICE OF INVESTIGATIONS

                                           CLOSEOUT MEMORANDUM

Case Number: A05070047
                                                                              11         Page 1 of 1



                  The subject1submitted a proposal with small amounts of verbatim plagiarism from 11
          different sources. He explained that he mistakenly submitted an earlier-than-intended draft
          of his proposal to NSF, because of problems with his computer. While this is plausible, it
          failed to address the fact that the proposal he submitted contained plagiarized material
          because he copied-and-pasted text from other documents into his draft proposal. We wrote
          to the subject and admonished him to start his proposals with his own text in the future.

                 Because the overall quantity of plagiarized text was small, this case would not warrant
          a finding of research misconduct. Accordingly, this case is closed.




           1




\]SF OIG F o m ~2 (1 1102)
